No. 19-1153
IN THE SUPREME COURT OF THE UNITED STATES
RUSSELL A. SUZUKI, ET AL., PETITIONERS
v.
CHRISTOPHER DEEDY

CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with
copies of the BRIEF FOR THE RESPONDENT IN OPPOSITION, via email by
agreement between the parties pursuant to the Court’s order of April 15, 2020, this
19th day of May, 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,495 words, excluding the parts of the brief that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on May 19, 2020.

MATTHEW M. MADDEN
ROBBINS, RUSSELL, ENGLERT, ORSECK,
UNTEREINER & SAUBER LLP
2000 K Street, NW, 4th Floor
Washington, DC 20006
(202) 775-4500
mmadden@robbinsrussell.com

19-1153
RUSSELL A. SUZUKI
KEITH M. KANESHIRO
NOLAN P. ESPINDA
STATE OF HAWAII
CHRISTOPHER DEEDY
Donn Fudo, Esq.
Department of the Prosecuting Attorney
1060 Richards Street, 9th Floor
Honolulu, HI 96813
dfudo@honolulu.gov

